Nos. 19-465, 19-518

 

 

IN THE

Supreme Court of the United States

PETER BRET CHIAFALO, LEVI JENNET GUERRA,
and ESTHER VIRGINIA JOHN,
Petitioners,
Vv.
STATE OF WASHINGTON,
Respondent.

COLORADO DEPARTMENT OF STATE,
Petitioner,
Vv.
MICHEAL BACA, POLLY BAca,
and ROBERT NEMANICH,
Respondents.

On Writs of Certiorari to the
Supreme Court of Washington and the
U.S. Court of Appeals for the Tenth Circuit

BRIEF OF AMICI CURIAE
CAMPAIGN LEGAL CENTER AND ISSUE ONE
SUPPORTING THE STATES
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,975 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 8, 2020.

A.

Colin Casey Hogan’
Wilson-Epes Printing Co., Inc.

   
